Nos. 19-508 & 19-825

 

 

IN THE

Supreme Court of the United States

AMG CaPITAL MANAGEMENT, LLC ET AL.,
Petitioners,

v.

FEDERAL TRADE COMMISSION,
Respondent.

FEDERAL TRADE COMMISSION,
Petitioner,

Vv.

CREDIT BUREAU CENTER, LLC ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Seventh and Ninth Circuits

BRIEF FOR THE CHAMBER OF COMMERCE
OF THE UNITED STATES OF AMERICA,
NATIONAL RETAIL FEDERATION, AND

DIRECT SELLING ASSOCIATION AS AMICI
CURIAE IN SUPPORT OF PETITIONERS IN
NO. 19-508 AND RESPONDENTS IN NO. 19-825

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,667 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 2, 2020.

 

Colin Case¥ Hogan
Wilson-Epes Printing Co., Inc.
